                                                       NATIONAL SCIENCE FOuNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number:AI0070057                                                                        Page 1 of 1



                We received an allegation of plagiarism in an SBIR proposal 1. We contacted the subjecf,
         who disagreed that it was inappropriate to use the small amount of identical text. .

                The amount of copied text did not rise to the level to warrant a full investigation. Therefore
         we sent the Subject·a letter, reminding him of the importance of properly citing text within NSF
         proposals.

                   Accordingly, this case is closed.




NSF oro Fonn 2 (11102)
